No

.10-1941

Supreme Court of tfje Kntteb £§>tate£

ERIC S. CLARK,
Petitioner,
v.
CITY OF WILLIAMSBURG, KANSAS,
Respondent.

filed
MAR 1 6 2021
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Tenth Circuit

PETITION FOR A WRIT OF CERTIORARI

Eric S. Clark
1430 Dane Ave.
Williamsburg, Kansas 66095
785-214-8904

I>upreEmeFctoi^tS^k I

X

QUESTIONS PRESENTED FOR REVIEW
QUESTION 1:
Should the court adopt the original meaning of the
Fourth Amendment by holding that a search of a
home(castle) is unreasonable when (i.e., in those in­
stances for which) the implied license operates as the
functional equivalent of a general warrant (i.e., acts
similar to a writ of assistance)!
QUESTION 2:
Regardless of whether it would be a reasonable or an
unreasonable search of a home, plainly, is it a “search”
for Fourth Amendment analysis purposes when the
government initiates a physical intrusion into the cur­
tilage of a home with a purpose of seeking information?
QUESTION 3:
With the lone historical exception of performing “ser­
vice” of a warrant or civil process and apart from a
search being unreasonable based on expectation of pri­
vacy and apart from whether or not the government’s
action exceeds what the implied license permits . . .
Is it an “unreasonable” search when the government
initiates a “physical intrusion of the curtilage of home”
without a permissible warrant (i.e., a warrant that con­
tains a particularized description) and the objectively
determinable purpose is to seek information about a
violation of law!

11

QUESTIONS PRESENTED - Continued
QUESTION 4:
For a First Amendment claim that an ordinance un­
constitutionality infringes on the fundamental right of
free speech, at the summary judgment stage, is it
proper to dismiss the claim for lack of standing by
drawing an inference that the ordinance does not ap­
ply to petitioner because the notice of violation issued
for the enforcement action does not directly cite the
specific provision(s) being enforced even when the
notice references “other objects” and “several signs”
(rather than specifically identifying a “cross” and other
non-political signs which are restricted by the ordi­
nance)?

Ill

PARTIES TO THE PROCEEDINGS
Petitioner was Plaintiff and Appellant below. Re­
spondent City of Williamsburg, Kansas, was Defend­
ant and Appellee below.
RULE 29.6 DISCLOSURE
Petitioner certifies that no corporation is involved
concerning the petitioner of this case.
RELATED CASES
Clark v. City of Williamsburg, No. 2:17-cv-02002-HLT,
U.S. District Court for the District of Kansas.
Clark v. City of Williamsburg, No. 19-3237, U.S. Court
of Appeals for the Tenth Circuit.

IV

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW........

1

PARTIES TO THE PROCEEDINGS....................

in

RULE 29.6 DISCLOSURE.....................................

in

RELATED CASES..................................................

in

TABLE OF CONTENTS........................................

IV

TABLE OF AUTHORITIES...................................

vi

PETITION FOR A WRIT OF CERTIORARI.......

1

OPINIONS BELOW................................................

1

JURISDICTION......................................................

2

RELEVANT CONSTITUTIONAL PROVISIONS....

2

SUMMARY OF THE ARGUMENT................

3

STATEMENT OF THE CASE..........................

4

REASON FOR GRANTING THE PETITION

5

CONCLUSION..................................................

23

APPENDIX
OPINION OF THE TENTH CIRCUIT
(January 14, 2021)...................................

App. 1

ORDER OF THE DISTRICT COURT
(May 9, 2019)............................................

App. 44

JUDGMENT OF THE DISTRICT COURT
(July 18,2019)..........................................

App. 87

V

TABLE OF CONTENTS - Continued
Page
NOTICE OF APPEAL
(October 16, 2019)..........

App. 89

DENIAL OF REHEARING
(February 11, 2021)........

App. 91

VI

TABLE OF AUTHORITIES
Page
U.S. Supreme Court Cases
Collins v. Virginia,
No. 16-1027, 584 U.S.___(2018)

16

Florida v. Jardines,
569 U.S. 1 (2013).........................

.passim

Jones v. United States,
357 U.S. 493 (1958).....................

10

Marcus u. Search Warrant,
367 U.S. 717 (1961).....................

10

Payton v. New York,
445 U.S. 573 (1980).....................

10

Stanford v. Texas,
379 U.S. 476 (1965).....................

10

United States v. Jones,

565 U.S. 400 (2012)................

6,16

Circuit Cases
Miller v. Gammie,
335 F.3d 889 (9th Cir. 2003)..

17

Morgan v. Fairfield County,
No. 17-4027 (6th Cir. 2018)...

19

United States v. Carloss,
818 F.3d 988 (10th Cir. 2016)

15,17

United States v. Dixon,
No. 19-10112 (9th Cir. 2020).

17

United States v. Richmond,
No. 17-40299 (5th Cir. 2019).

20

Vll

TABLE OF AUTHORITIES - Continued
Page
United States v. Walker,
799 F.3d 1361 (11th Cir. 2015)

19, 20

United States v. Wells,
648 F.3d 671 (8th Cir. 2011)....

20

State Cases
People v. Frederick,
500 Mich. 228 (2017)....................................

14

State v. Counts,
South Carolina Supreme Court No. 27546,
filed July 8, 2015.........................................

21

Constitutional Provisions
21 .

South Carolina State Constitution
U.S. Const, amend. IV.....................

passim

Other Authorities
Massachusetts Declaration of Rights.................

12

The Works of John Adams, Second President
of the United States: With a Life of the Au­
thor .....................................................................

12

Virginia Declaration of Rights (1776).................

11

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Eric S. Clark respectfully petitions for a
writ of certiorari to review the judgment of the federal
Court of Appeals for the Tenth Circuit.

OPINIONS BELOW
The February 11, 2021 “ORDER” (10th Cir. App.
Dk. 010110478713) by the federal Court of Appeals for
the Tenth Circuit DENYING petitioner’s petition for
rehearing is in the Appendix at App. 91.
The January 14,2021 “ORDER AND JUDGMENT”
(10th Cir. App. Dk. 010110465214) by the federal Court
of Appeals for the Tenth Circuit AFFIRMING the
judgment of the District Court is in the Appendix at
App. 1.
The July 18, 2019 “JUDGMENT IN A CIVIL
CASE” (Dist. Kan. Dk. 156) issued by the federal Dis­
trict Court pursuant to the verdict issued on July 18,
2019 and the previous order (Dist. Kan. Dk. 114) issued
May 9,2019 concerning summary judgment motions is
in the Appendix at App. 87.
The May 9,2019 “MEMORANDUM AND ORDER”
(Dist. Kan. Dk. 114) issued by the federal District
Court which granted the defendant’s motion for sum­
mary judgment on the Fourth Amendment claim and
granted petitioner’s motion for summary judgment on
the First Amendment claim but limiting it to a single

2

provision even after severance, is in the Appendix at
App. 44.

JURISDICTION
This Court has jurisdiction under 28 U.S.C.
§1254(1) and 28 U.S.C. §2101(c). The denial of petition
for rehearing by the federal Court of Appeals for the
Tenth Circuit issued on February 11, 2021 and the
time to file a petition for writ of certiorari with the U.S.
Supreme Court runs from that denial.

RELEVANT CONSTITUTIONAL PROVISIONS
Constitution of the United States, Amendment IV:
“The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not
be violated, and no warrants shall issue, but
upon probable cause, supported by oath or
affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.”
Constitution of the United States, Amendment I:
“Congress shall make no law respecting an
establishment of religion, or prohibiting the
free exercise thereof; or abridging the free­
dom of speech, or of the press; or the right
of the people peaceably to assemble, and to

3

petition the Government for a redress of
grievances.”

SUMMARY OF THE ARGUMENT
FOURTH AMENDMENT
Contrary to the holding of the District Court and
the Tenth Circuit in this case that “no search” occurred,
for Fourth Amendment analysis purposes it is a search
when the government initiates physical intrusion into
the curtilage of a home with a purpose of seeking in­
formation.
As to Fourth Amendment analysis, Petitioner of­
fers that for any claim to an unreasonable search of a
home, courts should follow a two part analysis: step
one being determination of whether or not a “search”
occurred and; step two being a determination of its
“reasonableness.”
As to step one, at the very least, a search occurs
when the government initiates physical intrusion into
the curtilage of a home with a purpose of seeking in­
formation.
As to step two, a search should not only be per se
unreasonable without a special (as opposed to general)
warrant but a “warrantless search” of a home should
be categorically unreasonable when it is initiated by a
physical intrusion into the home, or curtilage of a
home, with a purpose of seeking information about a
violation of law.

4
In summary, with the lone historical exception of
seeking information needed to serve a warrant or civil
process - and separate and apart from a search being
unreasonable based on expectation of privacy and sep­
arate and apart from whether or not the government’s
action exceeds what the implied license permits - it is
an “unreasonable” search when the government initi­
ates a “physical intrusion of the curtilage of home”
without a permissible warrant (i.e., a warrant that con­
tains a particularized description) and the objectively
determinable purpose is to seek information about a
violation of law.
In other words, a search of the home or curtilage
is categorically unreasonable in those instances for
which the “implied license” would operate like a gen­
eral warrant search.
FIRST AMENDMENT
The district court (and Tenth Circuit) should have
drawn an inference that the use of the terms “other
objects” and “several signs” in the notice of violation
issued for the enforcement action encompassed provi­
sion^) being enforced because of the “cross” and that
those provisions applied to petitioner’s claim.

STATEMENT OF THE CASE
On May 9, 2019, the District Court entered an
order (App. 44) which granted summary judgment for

5

respondent on petitioner’s Fourth Amendment claim
and granted summary judgment for the petitioner on
his First Amendment claim.
A trial for damages concerning the First Amend­
ment claim was held, and on July 18, 2019 a “JUDG­
MENT IN A CIVIL CASE” (App. 87) was issued
pursuant to the verdict issued on July 18,2019 and the
previous order (App. 44) issued May 9, 2019.
Petitioner then filed a notice of appeal on October
16, 2019 (App. 89).
On January 14, 2021, the Court of Appeals for the
Tenth Circuit issued an order and judgment (App. 1)
affirming the district court. Petitioner then filed a pe­
tition for rehearing and on February 11, 2021, the
Tenth Circuit DENIED the petition for rehearing (App.
91).
Petitioner now appeals to this Supreme Court of
the United States for relief.

REASON FOR GRANTING THE PETITION
THIS DISPUTE PRESENTS AN IMPORTANT
QUESTION OF FEDERAL LAW THAT HAS NOT
BEEN, BUT SHOULD BE, “CLEARLY” SETTLED BY
THIS COURT.
THIS CASE IS AN IDEAL VEHICLE TO DECIDE
THE QUESTIONS PRESENTED AS THE FACTS
OF THE CASE ARE SIMPLE, UNDISPUTED, AND

6
DIRECTLY ON POINT FOR THE QUESTIONS PRE­
SENTED.
RESOLVING THE QUESTIONS PRESENTED
WILL HELP CLEAR UP CONFUSION AMONG THE
COURTS (FEDERAL, STATE, AND LOCAL).
Grant this petition because, despite Jones and
Jardines (United States v. Jones, 565 U.S. 400 (2012);
Florida v. Jardines, 569 U.S. 1 (2013)) mixed signals
(especially footnote 4 of Jardines) have left much con­
fusion in the courts, including splits between circuits
and between State supreme courts and even between
justices on the various high courts (including this very
U.S. Supreme Court) not only about whether or not a
search is unreasonable but even about whether or not
a “search” of the home has even occurred at all.
Answering the questions presented could elimi­
nate much, if not all, of the confusion about when a
search occurs and when a search of the home and cur­
tilage is unreasonable under the Fourth Amendment
by providing much need clarity about those “implied
license” searches (i.e., so called knock and talks) which
are permissible (such as some of those mentioned by
the dissent in Jardines) from those knock and talks
which are impermissible (such as an approach in order
to seek information about a violation of law - the very
type of searches for which the Fourth Amendment was
enacted to prohibit).
The facts of this case are relatively simple. With­
out a warrant, the government initiated physical in­
trusion onto the curtilage of petitioner’s home for the

7
purpose of seeking information about a violation of
law. The government issued petitioner a notice of vio­
lation and documented its subsequent visit seeking
information about the alleged violation. Thus, the is­
sue is that, even with documentary evidence in the
record that the officer entered the curtilage with the
purpose of seeking information about a violation of
law (Notice of Violation) and; even with evidence in
the record that the officer made contact with, and
spoke to, the home’s occupant, the district court found
that “no search” occurred and the Tenth Circuit af­
firmed that “no search” finding (“we conclude that no
search occurred” App. 25) opining that ‘[i]n short, no
“search” occurred for purposes of the Fourth Amend­
ment.’ App. 26.
While there can be no doubt that the Fourth
Amendment prohibits unreasonable searches based
on expectation of privacy and unreasonable searches
based on exceeding the implied license to approach a
home, those are ancillary to the primary type of
searches that the historical original meaning of the
Fourth Amendment was intended to prohibit as being
unreasonable searches - i.e., those searches for which
the government initiates a physical intrusion into the
curtilage of a home with the purpose of seeking infor­
mation about violation of law.
Answering the “questions presented” in the affirm­
ative would not preclude searches for violations of law
from being “reasonable” so long as a constitutionally
permissible warrant was obtained, nor would it pre­
vent all warrantless “searches” of a home’s curtilage

8

(which was of concern to the dissent in Jardines) so
long as the purpose of those searches is not that of
seeking information about a violation of law.
Such a prohibition on searches which have the
purpose of seeking information about violation of law
would more accurately and specifically identify why, in
Jardines, there was not only a “search” but that it was
an “unreasonable” search even if a dog sniff itself is not
a search and even if the government never strayed
from the route of access that any visitor would custom­
arily use. This would certainly allow for a neighbor (or
even police) to bring their dog to the front porch seek­
ing information about borrowing cup of sugar. Further,
this would correct the errant Jardines reasoning (in
the problematic footnote 4) that “no one is impliedly
invited to enter the protected premises of the home in
order to do nothing but conduct a search.” That is
errant reasoning because a neighbor who seeks in­
formation about borrowing a cup of sugar might, im­
mediately after initiating a physical intrusion onto the
curtilage, remember that they recently bought some
sugar and left it in the backseat of their own car and
thus depart having done nothing but conduct a search.
Likewise, under petitioner’s proffered meaning of
the Fourth Amendment, an officer could initiate phys­
ical intrusion onto the curtilage in an approach to a
home with a lost child seeking information about the
location of the parents or guardians and moments later
be hailed from across the street by the parents of the
child and then the officer would leave having done
nothing but conduct a search (and the “implied license”

9
invites that entry even if the entry is short lived and
the purpose of entry was a search, albeit not a search
for information about a violation of law).
Even accepting that footnote 4 is valid reasoning,
if “no one is impliedly invited to enter the protected
premises of the home in order to do nothing but con­
duct a search,” it could equally be reasoned that “no
one is impliedly invited to enter the protected premises
of the home with a group of others dressed in tactical
gear to surround a house”
Is there an implied license for a group of people
operating high definition body cams (which can ob­
serve better than human eyes) to approach and knock
every two hours from sunrise to sunset to not only rec­
ord but to ascertain occupancy habits as well as to per­
form plain view and plain sight activities in hope of
finding a violation of law?
In Jardines, the presence of a specialty dog
(trained to alert to drugs, etc.) was important to the
analysis because it objectively revealed the officers’
true purpose: to gather evidence. And petitioner would
add that the gathering of evidence was about violation

of law.
There can be no reasonable doubt that those who
drafted the Fourth Amendment would have under­
stood that the original meaning of the Fourth Amend­
ment would prohibit such searches, after all, the
historical version of a “knock and talk” used by the
Crown was to seek information, including through ap­
proaching the home to speak about any property which

10
would be in violation of law. Thus, even if seeking
information about a violation of law was not prohib­
ited by the implied license under common law, enact­
ment of the Fourth Amendment clearly shows the
original meaning of the Fourth Amendment was to pro­
hibit such searches as were based on the conveniently
worded “writs of assistance” which permitted search of
any property including the curtilage to discover if it
contained any goods in violation of law. These “indis­
criminate searches and seizures conducted under the
authority of ‘general warrants’ were the immediate
evils that motivated the framing and adoption of the
Fourth Amendment.” Payton v. New York, 445 U.S. 573,
583 (1980). These “hated writs”1 spurred colonists to­
ward revolution.2
Under precedent, exceptions to the warrant re­
quirement should be few, specifically established, and
well-delineated. The implied license is not well delin­
eated in that it overlays the Fourth Amendment’s pro­
tection against general warrant type of searches for
violations of law at the home. Further, exceptions to
the Fourth Amendment’s warrant requirement are
supposed to be “jealously and carefully drawn.” Jones
1 Stanford, v. Texas, 379 U.S. 476, 484 n.13.
2 Stanford, 379 U.S. at 481 (“Vivid in the memory of the
newly independent Americans were those general warrants
known as writs of assistance under which officers of the Crown
had so bedeviled the colonists.”). See also Marcus v. Search War­
rant of Property, 367 U.S. 717, 729 (“The Bill of Rights was fash­
ioned against the background of knowledge that unrestricted
power of search and seizure could also be an instrument for sti­
fling liberty of expression.”).

11
v. United States, 357 U.S. 493,499 (1958). But the “im­
plied license” as described in Florida v. Jardines, 569
U.S. 1 (2013), which is one such exception (sometimes
referred to as a knock and talk exception), has not been
so jealously guarded by the courts and is so far from
being “carefully drawn” that it is an exception which
has swallowed the rule (i.e., the Fourth Amendment).
This Court should not allow the exception to continue
in abandon to do that which the Fourth Amendment
was clearly enacted to prohibit. It is a well settled
principle of law that the government cannot do indi­
rectly what it is not permitted to do directly (“Quando
aliquid prohibetur ex directo, prohibetur et per
obliquum”) yet the “general warrant” type of searches,
like many of today’s “knock and talks” which do no
more than seek to search for violations of law, are evad­
ing the Fourth Amendment by being cloaked in a
“knock and talk” smokescreen. Such searches became
an egregious affront to the people of the colonies and
history indicates that the States would not have rati­
fied the newly crafted Constitution had the Fourth
Amendment not prohibited such searches, the Fourth
Amendment requiring particularized descriptions in
warrants for that type of search. Massachusetts had
barred the use of general warrants in 1756 and the Vir­
ginia Declaration of Rights (1776) explicitly forbade
the use of general warrants. Future President John
Adams, who was present in the courtroom on February
23, 1761 when James Otis (of Massachusetts) spoke
in opposition to general warrants (the court ruling
against Otis) viewed these events as “the spark in
which originated the American Revolution.” See page

12
59 Adams, Charles Francis; Adams, John (1856). The
Works of John Adams, Second President of the United
States: With a Life of the Author. Further, Article XTV
of the Massachusetts Declaration of Rights, written by
John Adams and enacted in 1780 as part of the Massa­
chusetts Constitution, added the requirement that all
searches must be “reasonable,” and likely served to in­
fluence the language of the Fourth Amendment.
This understanding of the Fourth Amendment
would alleviate the concerns of the dissent in Jardines
about “Mail carriers and persons delivering packages
and flyers” and “categories of visitors whom an occu­
pant of the dwelling is [not] likely to welcome” and law
enforcement when acting as “solicitors, hawkers and
peddlers of all kinds.” For example, this understanding
would permit a government officer to enter the curti­
lage seeking information about whether the occupants
of a home would donate to a police defense fund even
if the occupant found such an approach to be objection­
able.
The only potential departure from the Jardines
dissent being that this historical understanding would
prohibit “police officers who wish to gather evidence
against an occupant (by asking potentially incriminat­
ing questions)” at least, when the officer first initiates
physical entry into the curtilage of a home and the ob­
jectively identifiable purpose is to seek information
about a violation of law. (That an officer asks for
consent to search after having initiated entry into the
curtilage does not alter the purpose of the current
search for which the officer is engaged).

13
This historical meaning would not preclude asking
potentially incriminating questions during a permissi­
ble search, i.e., so long as there is no objectively identi­
fiable purpose of seeking information about a violation
of law.
An officer initiating physical intrusion of the cur­
tilage of a home seeking information about whether
the occupant would donate to a police defense fund
(e.g., officer acting as a solicitor) would be permissible;
however, if it is objectively shown that the soliciting is
merely a pretext for performing a “plain view” (smell,
hearing, etc.) search, i.e., has the ulterior purpose of
seeking information about a violation of law, then it
would be an unreasonable search because such a pre­
text cannot negate the actual purpose, unlike negation
of those pretext searches which occur outside the home
and its curtilage, this is so because of the fact that the
pretext search of a home initiated by entry onto the
curtilage would occur at a place the officer has no right
to be when the officer objectively holds that ulterior
purpose of seeking information about violation of law.
In that respect, initiating entry of the curtilage to seek
consent to search is plainly a pretext when the very
purpose of obtaining consent is to then seek infor­
mation about a violation of law.
No doubt many police departments will convert
their specialized ‘knock and talk’ UNITS from seeking
consent to seeking donations, etc. The courts should
be on guard for such — e.g., there is no reasonable ex­
planation for multiple officers (often tactically armed)
to approach a house, much less surround a house, when

14
the real purpose of the approach is to simply seek a
donation.
The Michigan Supreme Court held (see People u.
Frederick, 500 Mich. 228, 895 N.W.2d 541 (2017), 2017
WL 2407097, that “any attempt to gather information,”
including simply asking the occupants for consent to
search, combined with a constitutional trespass, con­
stitutes a search under the Fourth Amendment noting
that “[t]he officers here plainly approached the defend­
ants’ homes for the purpose of gathering information.
The fact that the officers sought to gather their infor­
mation by speaking with the homeowners rather than
by peering through windows or rummaging through
the bushes is irrelevant. What matters is that they
sought to gather information by way of a trespass on
Fourth-Amendment-protected property.” Id. at 12.
While the Michigan Supreme Court held that a
search did occur (i.e., “purpose of gathering infor­
mation”) but was unreasonable, in juxtaposition to
that is the Tenth Circuit holding in the present case
that no search occurred. It seems clear use of “no
search” is not simply a metaphor for saying that the
implied license was not exceeded because no such cur­
tilage analysis was performed by the majority in this
Tenth Circuit case.
Most importantly, there was evidence in the record
in the present case that the purpose of entering the
curtilage was to seek information about a violation of
law (i.e., following up on a Notice of Violation previ­
ously issued to the home’s occupant). The precedent of

15
the Tenth Circuit allows the very general warrant type
of search which was a primary driving factor to adopt
and ratify the Fourth Amendment.
The Tenth Circuit relied on United States v. Carloss, 818 F.3d 988, 993 (10th Cir. 2016) which found
that “Jardines did not restrict knock-and-talks,” but
that conclusion swept too broadly partly because of the
vagueness of what is considered to be a “knock and
talk” and that conclusion placed too much reliance on
the dissent in Jardines, i.e., reliance on the dissent’s
statement that “ [PJolice officers do not engage in a
search when they approach the front door of a resi­
dence and seek to engage in what is termed a ‘knock
and talk,’ i.e., knocking on the door and seeking to
speak to an occupant for the purpose of gathering evi­
dence.”) (emphasis added)
That quip of Justice Alito in the dissent of
Jardines that “officers do not engage in a search” is a
misapprehension or else a misstatement - which
would be correct if stated as “officers do not engage in
[an unreasonable] search when [...]”
Justice GORSUCH, who was then a Circuit Judge,
filed a dissenting opinion in Carloss specifically identi­
fying that a “search” occurs when the intent is “to ob­
tain information.” See dissent at 5:
‘An officer approaching your home to return your
lost dog or to solicit for charity may not be conducting
a “search” within the meaning of the Fourth Amend­
ment. But one calling to investigate a crime surely is.
Neither is it necessary for officers to bring with them

16
drug sniffing dogs or thermal imaging technology: they
“search” a home’s curtilage simply by entering
that constitutionally protected place to obtain in­
formation(emphasis added)
Determination of whether a search is reasonable
or unreasonable can only be undertaken if a search
occurred so this confusion has left the courts dividing
even though United States v. Jones, 565 U.S. 400 (2012)
provides seemingly clear direction by stating that
‘[t]he Government physically occupied private prop­
erty for the purpose of obtaining information. We have
no doubt that such a physical intrusion would have
been considered a “search” within the meaning
of the Fourth Amendment when it was adopted
(emphasis added) This Supreme Court reiterated as
much in Collins v. Virginia, No. 16-1027, 584 U.S.__
(2018), by specifically citing to Jardines and para­
phrasing it as “[w]hen a law enforcement officer physi­
cally intrudes on the curtilage to gather evidence,
a search within the meaning of the Fourth Amend­
ment has occurred. Jardines, 569 U. S., at 11. Such
conduct thus is presumptively unreasonable absent a
warrant.” (emphasis added)
Yet, as can be seen in the present case among
many others, even after Jones (2012), Jardines (2013)
and Collins (2018), division still persists in making the
“search” versus “no search” differentiation. Perhaps
partly due to some circuits feeling locked into follow­
ing their own circuit precedent apart from clear over­
turning by this U.S. Supreme Court and both, footnote

17
4 of the majority and the reasoned dissent in Jardines,
stand as cause for much of the cloudiness.
The Ninth Circuit perceives the search/no search
issue as being clear as can be seen in United States v.
Dixon, No. 19-10112, (9th Cir. 2020) (‘our decision in
Currency is “clearly irreconcilable” with the Supreme
Court’s property-based Fourth Amendment jurispru­
dence, and it cannot stand to the extent that it con­
cluded that no search occurred on these facts. See
Miller v. Gammie, 335 F.3d 889, 893 (9th Cir. 2003)’
(emphasis added).
While the Ninth Circuit may have found the
“search/no search” point of law to be clear, that does not
mean all points made by Jardines is clear to the Ninth
Circuit nor that the “search/no search” point is clear to
the vast array of other Federal Circuit Courts and
State High Courts, including the Tenth Circuit which
has cited that Jardines reiterated that a knock-andtalk itself is not a search for Fourth Amendment pur­
poses: “ [I] t is not a Fourth Amendment search to ap­
proach the home in order to speak with the occupant,
because all are invited to do that. The mere purpose of
discovering information in the course of engaging in
that permitted conduct does not cause it to violate the
Fourth Amendment.” Id. at 1416 n.4 (citation, internal
quotation marks omitted)). ‘Thus, Jardines left our
preexisting knock-and-talk precedent undisturbed.’
Carloss at 8 (emphasis in original). Though there was
a dissent by then circuit judge Gorsuch, that undis­
turbed ‘preexisting knock-and-talk precedent’ includes
support for a finding of “no search” by both the District

18
Court in this case and as affirmed by the Tenth Circuit
even though the officer “physically intrude[d] on the
curtilage to gather evidence” Jardines, 569 U.S., at
11. That finding by the District Court and affirmed by
the Tenth Circuit (albeit over dissent) is clearly in er­
ror in that, regardless of reasonable or unreasonable,
there was a search as the term “search” is understood
under the historical meaning of the Fourth Amend­
ment.
In closing the majority opinion in the present case,
the Tenth Circuit stated that ‘[a]lthough [officer] De La
Torre approached Clark and asked to consensually
speak with him, Clark immediately and repeatedly
yelled at De La Torre to leave his property and De La
Torre complied and left. Thus, De La Torre did not com­
plete any “knock and talk” and gathered no infor­
mation.’ App. 26-27.
This reasoning should be found as irrelevant be­
cause the existence of a search does not turn on
whether or not the search that was initiated was ulti­
mately successful or not. Does an approach onto the
curtilage seeking to investigate concerning a Notice of
Violation constitute “a search”? It is clear that Judge
Gorsuch would have said that it does.
The only question remaining then being, is it an
“unreasonable” search? And, as a “general warrant”
type of search for violation of law, it was unreasonable.
At minimum, a number courts, such as the 5th,
6th, 8th, 10th and 11th circuits, and some State High
Courts, help to show the lingering confusion and the

19
failure to account for the original meaning of the
Fourth Amendment.
In Morgan v. Fairfield County, No. 17-4027 (6th
Cir. 2018), the Sixth Circuit found that “yes, the
SCRAP unit searched the property for Fourth Amend­
ment purposes” and that “ [t] he SCRAP unit was con­
cerned about general drug activity [i.e., violation of
law] at [the specific house].” But that was not thought
to be cause for finding the search impermissible.
Though the court did invalidate the search for exceed­
ing the implied license, the inquiry should have ended
upon finding the purpose of the search was for discov­
ery of a violation of law at the occupant’s home.
The Eleventh Circuit, in United States v. Walker,
799 F.3d 1361 (11th Cir. 2015), even though being postJardines, citied to pre-Jardines circuit cases to uphold
circuit precedent that a “small departure” or “minor
departure” from the ordinary route of access that any
visitor would use is permissible, much like the deter­
mination in this present case by the Tenth Circuit.
Specifically, in Walker, officers entered a carport lo­
cated next to the house, not because they thought that
was the ordinary route of access (which the officers had
used just two hours earlier) but “because they had rea­
son to believe the house’s occupant was sitting in the
car parked inside.” What if the officers had reason to
believe the occupant was in the backyard (like the pre­
sent case) even though the only door visible from any
publicly accessible place was the front door, okay to go
there (even though it might just be an occupant’s
young daughter sunbathing in the nude by a pool)? Cf.

20

United States v. Wells, 648 F.3d 671, 679-680 (8th Cir.
2011) (police exceeded scope of their implied invitation
when they bypassed the front door and proceeded di­
rectly to the backyard).
As for minor departure concerning trespass via
the implied license, cf. U.S. v. Richmond, No. 17-40299,
5th Cir. (2019) (“relatively minor” act of tapping tires
is thus a trespass.)
In addition, in Walker it was noted that ‘[t] he scope
of the knock and talk exception is limited in two re­
spects. First, it ceases where an officer’s behavior “ob­
jectively reveals a purpose to conduct a search.” Id. at
1416-17’ referencing Jardines. Even if the Walker
court had found that a search did occur, that part,
linked to reliance on Jardines, is overly broad (i.e.,
overly limiting of the scope of the implied license) as
applied to the original meaning of the Fourth Amend­
ment in that many objectively revealed purposes of
searching should be permissible (such as many of those
purposes mention by the dissent in Jardines) as those
many purposes can be exclusive of searching for infor­
mation about a violation of law.
The term “knock and talk” is not a bright line or
even a rule for that matter except to the extent it is
sometimes used like a synonym for “implied license
search” rule/exception. Clearly, some “knock and talk”
approaches, i.e., approaches seeking information, do
not violate the Fourth Amendment because of law en­
forcement engaging only in activities that an ordi­
nary citizen would engage in while on someone else’s

21
property. That said, the converse is also true, i.e., that
some “knock and talks” do violate the Fourth Amend­
ment because of law enforcement engaging in activi­
ties to which the general warrant prohibition of the
Fourth Amendment applies. Specifically, when the ac­
tivities involve searching for information about viola­
tion of law.
Increasingly, these general warrant type of searches
(certain knock and talks) are growing in number with­
out any check by the courts to even recognize them as
searches let alone impermissible searches. That is the
crux of this petition and it is of extreme importance
that it be addressed because the number of innocent
people killed during such searches is growing as well.
Under South Carolina’s similar unreasonable
search provision in its State Constitution, the Supreme
Court of South Carolina held that “law enforcement
must have reasonable suspicion of illegal activity be­
fore approaching the targeted residence and conduct­
ing the ‘knock and talk’ investigative technique.” See
State v. Counts, South Carolina Supreme Court No.
27546, filed July 8, 2015. That moves closer to the
original meaning of the Fourth Amendment but is yet
a step away - that is, reasonable suspicion without a
warrant is not sufficient to search within the curtilage
under the original meaning of the Fourth Amendment,
rather, a warrant based on probable cause is needed
(apart from the presence of any other valid exceptions
such as exigency). There was a departing concurring
opinion of two justices of that South Carolina court
which appears to stem from the vagueness of the term

\

22

‘“knock and talk’ investigative technique.” The South
Carolina court’s majority’s use of ‘investigative tech­
nique’ seems to imply ‘objective intent to obtain infor­
mation’ and the majority did not mention that a
separate exception (exigency, etc.) might apply to some
such ‘knock and talks.’ The departing view in that case
stating the concern as “Most particularly, I would not
prevent law enforcement from conducting welfare
checks at residences.” Under petitioners proffered
view of the original meaning of the Fourth Amend­
ment, such welfare checks would not fall under the
general warrant prohibition against seeking infor­
mation about violation of law, thus, it is not the “inves­
tigative technique” at issue but rather the purpose for
engaging in the investigation.
As for someone bringing a dog with them onto the
curtilage of a home, again, it is not the “investigative
technique” at issue but rather the purpose for engag­
ing in the investigation.
In summary, the court should adopt the historical
original meaning of the Fourth Amendment as prohib­
iting the government from initiating physical intru­
sion into a home’s curtilage with a purpose of seeking
information about a violation of law.
And, after having adopted that historical original
meaning, the Court should reverse the Tenth Circuit
and the District Court. The Tenth Circuit and others of
the “no search” courts would then have good reason to
overrule their own similar “no search” precedents.

23

FIRST AMENDMENT
The District Court and the Tenth Circuit failed to
apply longstanding precedent of this U.S. Supreme
Court concerning summary judgment on a First
Amendment claim.
In a deposition, the code enforcement officer iden­
tified a “cross” and another non-political sign as being
in violation of the sign regulations and that infor­
mation was noted in the summary judgment pleadings.
Petitioner being the non-movant, at the least, the
district court (and Tenth Circuit) should have drawn
an inference that the use of the terms “other objects”
and “several signs” in the Notice of Violation issued for
the enforcement action encompassed provision(s) be­
ing enforced beyond just “political” signs.

CONCLUSION
This petition for a writ of certiorari should be
granted.
Respectfully submitted,
Eric S. Clark
1430 Dane Ave.
Williamsburg, Kansas 66095
March 16, 2021

